                                                         NATIONAL SCIENCE FOUNDATION
                                                          OFFICE OF INSPECTOR GENERAL
                                                            OFFICE OF INVESTIGATIONS

                                                  CLOSEOUT MEMORANDUM

 Case Number: AOS010001
                                                                                            1           Page 1 of 1



            An allegation was received of intellectual property theft and plagiarism in a submitted NSF
            proposal.' Inquiry showed that the claimed intellectual property was a concept that had been
            previously published in the open scientific l i t e r a t ~ r eand
                                                                           , ~ there is no substance to this part of the
            allegation. Apparent instances of plagiarism in the submitted NSF proposal were rehted in the
            investigation, which showed that the PI and coPIs had prior connections with all of the allegedly
            duplicated texts.3 Possible conflicts-of-interests in the potentially overlapping activities of the
            PIS and coPIs that surfaced during the investigation were also refuted.

            Accordingly, this case is closed.




            ' Redacted.
                Redacted.
            3
                Redacted.



N S F 01(; For1112 (1 1/02)
